TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Five Fair Tax Collection Practices Violations
                     Resulted in Administrative Actions in
                              Calendar Year 2007



                                       September 5, 2008

                              Reference Number: 2008-10-162




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               September 5, 2008


 MEMORANDUM FOR CHIEF COUNSEL
                IRS HUMAN CAPITAL OFFICER


 FROM:                   (for) Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Five Fair Tax Collection Practices Violations
                               Resulted in Administrative Actions in Calendar Year 2007
                               (Audit # 200810004)

 This report presents the results of our annual review of Internal Revenue Service (IRS)
 administrative or civil actions that result from Fair Tax Collection Practices1 (FTCP) violations
 by IRS employees. Section 1102 (d)(1)(G) of the IRS Restructuring and Reform Act of 19982
 requires the Treasury Inspector General for Tax Administration to include in one of its
 Semiannual Reports to Congress information regarding administrative or civil actions related to
 FTCP violations.

 Impact on the Taxpayer
 The abuse or harassment of taxpayers by the IRS employees while attempting to collect taxes
 reflects poorly on the IRS and can have a negative impact on voluntary compliance. We
 determined that for Calendar Year 2007, there were five cases involving FTCP violations for
 which the employee received administrative disciplinary action. In addition, the IRS’ computer
 system contained a high percentage of cases that were miscoded as FTCP violations when they
 did not involve these types of violations. Inaccurate data on the number of FTCP violations can
 impede IRS management’s efforts to detect and correct customer service problems that burden
 taxpayers.


 1
  26 U.S.C. Section 6304 (2004).
 2
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                   Five Fair Tax Collection Practices Violations Resulted in
                         Administrative Actions in Calendar Year 2007



Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




                                                                                        3
                            Five Fair Tax Collection Practices Violations Resulted in
                                  Administrative Actions in Calendar Year 2007




                                               Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Fair Tax Collection Practices Violations Were Not
          Accurately Reported .....................................................................................Page 3
                    Recommendation 1: ...................................................................... Page 4

          No Fair Tax Collection Practices Civil Actions Resulted in
          Monetary Settlements to Taxpayers..............................................................Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 5
          Appendix II – Major Contributors to This Report ........................................Page 7
          Appendix III – Report Distribution List .......................................................Page 8
          Appendix IV – Outcome Measure ................................................................Page 9
          Appendix V – Fair Tax Collection Practices Provisions ..............................Page 10
          Appendix VI – Fair Tax Collection Violation Issue Codes..........................Page 11
          Appendix VII – Management’s Response to the Draft Report.....................Page 12
         Five Fair Tax Collection Practices Violations Resulted in
               Administrative Actions in Calendar Year 2007




                     Abbreviations

ALERTS         Automated Labor and Employee Relations Tracking System
FTCP           Fair Tax Collection Practices
IRS            Internal Revenue Service
                        Five Fair Tax Collection Practices Violations Resulted in
                              Administrative Actions in Calendar Year 2007




                                             Background

Section (§) 1102 (d)(1)(G) of the Internal Revenue Service (IRS) Restructuring and Reform Act
of 19981 requires that the Treasury Inspector General for Tax Administration include in one of its
Semiannual Reports to Congress information regarding any administrative or civil actions related
to violations of the Fair Tax Collection Practices (FTCP) listed in 26 U.S.C. § 6304.2 The
Treasury Inspector General for Tax Administration’s Semiannual Report to Congress must
provide a summary of such actions and include any judgments or awards granted.
As originally enacted, the Fair Debt Collection Practices Act3 included provisions that prohibit
various collection abuses and harassment in the private sector. The restrictions do not apply to
Federal Government practices. However, Congress believes that it is appropriate to require the
IRS to comply with applicable portions of the Fair Debt Collection Practices Act and to be at
least as considerate to taxpayers as private creditors are required to be with their customers. IRS
Restructuring and Reform Act of 1998 § 3466(a) requires that the IRS follow FTCP provisions
that are similar to the Fair Debt Collection Practices Act provisions (see Appendix V for a
detailed description of FTCP provisions).
Taxpayer complaints regarding IRS employees’ conduct can be reported to several IRS
divisions4 for tracking. If a taxpayer files a civil action, or if IRS management determines that a
taxpayer’s rights related to the FTCP might have been violated, the complaint may be referred
and tracked on one or both of the following IRS systems:
    •   IRS Human Capital Officer Workforce Relations’ Automated Labor and Employee
        Relations Tracking System (ALERTS), which generally tracks employee behavior that
        might warrant IRS management administrative actions.
    •   Office of Chief Counsel’s Counsel Automated System Environment, an inventory control
        system that tracks items such as taxpayer civil actions.
The IRS began tracking FTCP codes on the ALERTS in March 19995 and on the Counsel
Automated System Environment in June 1999. For this review, we analyzed closed cases for
Calendar Year 2007 from the ALERTS to identify violations of the FTCP. To be an FTCP
violation that the Treasury Inspector General for Tax Administration is required to report, the

1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  26 U.S.C. § 6304 (2004).
3
  15 U.S.C. §§ 1601 note, 1692 (2000).
4
  The IRS divisions are the Large and Mid-Size Business, Small Business/Self-Employed, Tax Exempt and
Government Entities, and Wage and Investment Divisions.
5
  See Appendix VI for a description of the ALERTS FTCP violation codes.
                                                                                                              Page 1
                    Five Fair Tax Collection Practices Violations Resulted in
                          Administrative Actions in Calendar Year 2007



action must have been taken by an IRS employee who was involved in a collection activity and
who received a disciplinary action that is considered an administrative action. We determined
that usually only those employees in the job series listed below will be engaged in
collection-related activities:
   •   Tax Specialist – Job Series 0526.
   •   Tax Examiner – Job Series 0592.
   •   Contact Representative – Job Series 0962.
   •   Revenue Officer – Job Series 1169.
The law does not provide a definition of “administrative action.” We used the IRS’ definition of
a disciplinary action when determining the number of violations to report under IRS
Restructuring and Reform Act of 1998 § 1102 (d)(1)(G). As defined by the IRS, disciplinary
actions range from a letter of admonishment to removal.
We could not ensure that the cases recorded on the ALERTS constitute all FTCP violations. The
ALERTS tracks administrative actions taken against employees due to improper conduct. Lesser
disciplinary actions, such as oral or written counseling, are not considered to be administrative
actions under the IRS’ definition and are not tracked on the ALERTS. Because the IRS does not
routinely track all informal oral counseling or minor actions against its employees, it is not
possible for us to determine how often, or why, informal oral counseling or other minor
disciplinary actions occurred. The scope of our audit was not intended to determine the accuracy
or consistency of disciplinary actions taken against employees.
This review was performed at the IRS Human Capital and Chief Counsel Offices in the
IRS National Headquarters in Washington, D.C., during the period March through May 2008.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                          Page 2
                       Five Fair Tax Collection Practices Violations Resulted in
                             Administrative Actions in Calendar Year 2007



                                                                                            Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this audit was to obtain information on IRS administrative or civil actions
resulting from FTCP violations1 by IRS employees. To accomplish the objective, we:
I.      Identified the number of FTCP violations resulting in administrative actions.
        A. Obtained a computer extract from the ALERTS2 of any cases opened after
           July 22, 1998, with an Issue Code of 141 to 147, and closed during the period
           January 1 through December 31, 2007. We analyzed the ALERTS extract and obtained
           additional case file information from the Labor Relations function, when needed, to
           determine the type of violation.
        B. Determined if any cases involving FTCP violations resulted in administrative actions.
        C. Obtained a computer extract from the ALERTS of any cases opened after July 22, 1998,
           and closed during the period January 1 through December 31, 2007, with the following
           Issue Codes:
                •   013 (Position/Authority Misuse - limited to only those closed with a
                    disposition code of 009 or higher).
                •   020 (Fighting, Assaults, and Threats - limited to only those closed with a
                    disposition code of 009 or higher).
                •   058 (Unprofessional Conduct - limited to only those closed with a disposition
                    code of 009 or higher).
                •   114 (Conviction Assault/Battery - all disposition codes).
                •   119 (Threat of Audit/Personal - all disposition codes).
                •   999 (Not Otherwise Coded - limited to only those closed with a disposition
                    code of 009 or higher).
        D. Analyzed the ALERTS extract and determined if any of the cases in these categories
           were miscoded and should have been coded as FTCP violations. When needed, we
           obtained additional case file information from the Workforce Relations function to
           determine the reason for the miscoding and the final resolution of the case. We did not

1
 26 U.S.C. Section 6304 (2004). FTCP provisions are explained in Appendix V.
2
 The Office of Workforce Relations’ ALERTS generally tracks employee behavior that might warrant IRS
management administrative actions.
                                                                                                       Page 5
                       Five Fair Tax Collection Practices Violations Resulted in
                             Administrative Actions in Calendar Year 2007



            attempt to independently validate the accuracy of the ALERTS database for this
            review. We limited our work to assessing the accuracy of the Issue Codes for those
            cases that met the criteria listed in Steps I.A through I.C.
        E. Determined if there were any FTCP violation cases (Subcategory 6304, established to
           track FTCP violations) resulting in IRS civil actions (judgments or awards granted) on
           the Office of Chief Counsel’s Counsel Automated System Environment3 database that
           had been opened after July 22, 1998, and closed during the period January 1 through
           December 31, 2007. We determined that no cases on the Counsel Automated System
           Environment database met these criteria. Due to time constraints, we did not conduct
           validation tests of this System. The Calendar Year 2007 data were consistent with those
           of past years, and there is less risk that cases were misclassified because qualified
           attorneys were deciding if each case met the legal definition of an FTCP violation. For
           these reasons, we considered the data’s reliability as undetermined but suitable for use in
           this report.




3
  The Counsel Automated System Environment is an Office of Chief Counsel inventory control system that tracks
items such as taxpayer civil actions.
                                                                                                        Page 6
                   Five Fair Tax Collection Practices Violations Resulted in
                         Administrative Actions in Calendar Year 2007



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Jeffrey M. Jones, Director
Joseph F. Cooney, Audit Manager
Robert Beel, Lead Auditor
Janice A. Murphy, Senior Auditor
Chinita M. Coates, Auditor




                                                                                        Page 7
                  Five Fair Tax Collection Practices Violations Resulted in
                        Administrative Actions in Calendar Year 2007



                                                                  Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Chief C
Deputy Commissioner for Operations Support OS
Director, Workforce Relations, IRS Human Capital Office OS:HC:R
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons: Chief Counsel CC
                 IRS Human Capital Officer OS:HCO




                                                                          Page 8
                        Five Fair Tax Collection Practices Violations Resulted in
                              Administrative Actions in Calendar Year 2007



                                                                                                  Appendix V

              Fair Tax Collection Practices Provisions

To ensure equitable treatment of debt collectors in the public and private sectors, the IRS
Restructuring and Reform Act of 19981 requires the IRS to comply with certain provisions of the
Fair Debt Collection Practices Act.2 Specifically, the IRS may not communicate with taxpayers
in connection with the collection of any unpaid tax:
    •    At unusual or inconvenient times.
    •    If the IRS knows that the taxpayer has obtained representation from a person authorized
         to practice before the IRS, and the IRS knows or can easily obtain the representative’s
         name and address.
    •    At the taxpayer’s place of employment, if the IRS knows or has reason to know that such
         communication is prohibited.
In addition, the IRS may not harass, oppress, or abuse any person in connection with any tax
collection activity or engage in any activity that would naturally lead to harassment, oppression,
or abuse. Such conduct specifically includes, but is not limited to:
    •    Use or threat of violence or harm.
    •    Use of obscene or profane language.
    •    Causing a telephone to ring continuously with harassing intent.
    •    Placement of telephone calls without meaningful disclosure of the caller’s identity.




1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.)
2
  15 U.S.C. Sections 1601 note, 1692 (2000).
                                                                                                              Page 10
                       Five Fair Tax Collection Practices Violations Resulted in
                             Administrative Actions in Calendar Year 2007



                                                                                   Appendix Vl

            Fair Tax Collection Violation Issue Codes

   Issue Code                                        Description
      141          UNUSUAL CONTACT WITH TAXPAYER – Contacting a taxpayer before
                   8:00 a.m. or after 9:00 p.m., or at an unusual location or time, or location
                   known or which should be known to be inconvenient to the taxpayer.
      142          DIRECT CONTACT WITH TAXPAYER WITHOUT REPRESENTATIVE
                   CONSENT – Contacting a taxpayer directly without the consent of the
                   taxpayer’s Power of Attorney.
      143          CONTACT AT TAXPAYER EMPLOYMENT WHEN PROHIBITED –
                   Contacting a taxpayer at their place of employment when it is known or should
                   be known that the taxpayer’s employer prohibits the taxpayer from receiving
                   such communication.
      144          HARASSMENT/ABUSE/THREAT OF ABUSE – Conduct which is intended
                   to harass or abuse a taxpayer, or conduct which uses or threatens to use violence
                   or harm.
      145          USE OBSCENE/PROFANE LANGUAGE TO ABUSE – The use of obscene
                   or profane language toward a taxpayer.
      146          CONTINUOUS PHONE CALLS WITH INTENT TO HARASS – Causing a
                   taxpayer’s telephone to ring continuously with harassing intent.
      147          PHONE CALLS WITHOUT MAKING FULL IDENTIFICATION
                   DISCLOSURE – Contacting a taxpayer by telephone without providing a
                   meaningful disclosure of the IRS employee’s identity.
Source: IRS ALERTS User Manual (April 2007).




                                                                                            Page 11
